No. 20-843

In the Supreme Court of the United States
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ET AL.,
Petitioners,
v.
KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Nicole A. Saharsky, counsel for Amici Curiae the Educational Fund to Stop
Gun Violence and 35 Other Organizations and Individuals and a member of the Bar
of this Court, certify that on this 27th day of September, 2021, I caused three copies
of this replacement Brief of the Educational Fund to Stop Gun Violence and 35
Other Organizations and Individuals to be served by overnight mail and a copy to
be served by electronic means on the following:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue N.W.
Washington, DC 20004
paul.clement@kirkland.com
202-289-5000

Barbara Dale Underwood
Solicitor General, Office of the Attorney
General
28 Liberty Street
New York, NY 10005
barbara.underwood@ag.ny.gov
212-416-8016

I further certify that all parties required to be served have been served.
Sincerely,

Nicole A. Saharsky

